App. 1
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted November 12, 2020
Decided November 23, 2020
Before
DIANE P. WOOD, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
No. 20-1822
KORY ALEXANDER,
Petitioner-Appellant,
v.
ALEX JONES,
Respondent-Appellee.

Appeal from the United
States District Court for
the Northern District of
Illinois, Eastern Division.
No. 1:19-cv-00538
Gary Feinerman,
Judge.

ORDER
Kory Alexander has ﬁled a notice of appeal from
the denial of his petition under 28 U.S.C. § 2254 and
an application for a certiﬁcate of appealability. We
have reviewed the ﬁnal order of the district court and
the record on appeal and ﬁnd no substantial showing
of the denial of a constitutional right. See 28 U.S.C.
§ 2253(c)(2).
Accordingly, Alexander’s request for a certiﬁcate of
appealability is denied.

App. 2
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
KORY ALEXANDER,
Petitioner,
vs.
ALEX JONES, Acting
Warden, Menard
Correctional Center,
Respondent.

)
)
)
)
19 C 538
)
Judge Gary Feinerman
)
)
)
)

MEMORANDUM OPINION

AND

ORDER

(Filed Mar. 11, 2020)
Kory Alexander, an Illinois prisoner serving a
forty-year sentence for the ﬁrst-degree murder of Darion Mason, petitions for a writ of habeas corpus under
28 U.S.C. § 2254. Doc. 1. The habeas petition is denied,
and a certiﬁcate of appealability will not issue.
Background
A federal habeas court presumes that state court
factual ﬁndings are correct unless rebutted by clear
and convincing evidence. See 28 U.S.C. § 2254(e)(1);
Jean-Paul v. Douma, 809 F.3d 354, 360 (7th Cir. 2015)
(“A state court’s factual ﬁnding is unreasonable only if
it ignores the clear and convincing weight of the evidence.”) (internal quotation marks omitted). The Appellate Court of Illinois was the last state court to

App. 3
address the merits of the claims that Alexander
presses on federal habeas review. People v. Alexander,
82 N.E.3d 96 (Ill. App. 2017) (reproduced at Doc. 10-1).
The following recounts the facts as the appellate court
described them, as well as the procedural background
of the state court proceedings.
A. Factual Background
In the late evening of November 22, 2011, Mason
was set to drive his mother to work. Id. at 98. When
approaching Mason’s car, “she observed the silhouettes
of her son in the driver’s seat and an unknown person
in the back seat.” Id. at 99. She heard gunshots, realized that someone was shooting Mason, and screamed
for help. Ibid. Mason ultimately died from the gunshots. Id. at 101.
Ofﬁcer Eddie Morales heard gunshots and drove
in their direction. Id. at 99. As Morales approached, he
saw an individual wearing black clothing, including a
hooded sweatshirt, running toward him while holding
something in his right hand. Ibid. Morales “exited his
vehicle and demanded the individual stop.” Ibid. When
the individual continued running, Morales pursued
until he saw someone “physically consistent with the
person he had seen.” Ibid.
Ofﬁcer Scott Guliano, responding to Morales’s request for backup, drove to the area and began to search
by foot. Id. at 99-100. He was joined by Ofﬁcer Kevin
Barnett. Id. at 100. Guliano saw a black male, wearing
a black T-shirt and black jeans in 35- to 38-degree

App. 4
weather, exit a gangway. Ibid. When the ofﬁcers told
him to stop, he began running. Ibid. The ofﬁcers pursued and detained that individual, and Morales later
identiﬁed him in court as Alexander. Id. at 99-100.
After Alexander was detained, “Morales retraced
[Alexander’s] steps back to where [Morales] initially
saw” him and discovered a black hooded sweatshirt, a
brown cloth glove, a leather glove, and a black semiautomatic handgun. Id. at 99. The ﬁrearm matched the
bullets recovered from Mason’s body and the shell casings at the scene. Id. at 101. A forensic analysis found
gunshot residue on the cloth glove but not on Alexander’s hands, the hooded sweatshirt, or the leather
glove. Ibid. At least three DNA proﬁles were found on
the sweatshirt, a mixture of DNA proﬁles were found
on the cloth glove, and a major DNA proﬁle was found
on the leather glove. Id. at 101. While the major DNA
proﬁle on the sweatshirt matched another individual,
Alexander could not be excluded from the minor DNA
proﬁles on the sweatshirt or from the DNA proﬁles on
the other items. Ibid.
B. State Court Proceedings
Alexander was charged with Mason’s murder. Id.
at 99. The trial court instructed the jury that to ﬁnd
Alexander guilty of ﬁrst-degree murder, it had to ﬁnd
that the State proved beyond a reasonable doubt that
he “performed the acts which caused [Mason’s] death”
and that “when [he] did so, he intended to kill or do
great bodily harm to . . . Mason; or [h]e knew his acts

App. 5
would cause death to . . . Mason; or [h]e knew that his
acts created a strong probability of death or great bodily harm to . . . Mason.” Id. at 105-06. The court also
instructed the jury on a ﬁrearm enhancement, asking
in a special interrogatory whether the State proved beyond a reasonable doubt that, “during the commission
of the offense of ﬁrst degree murder[, Alexander] personally discharged a ﬁrearm that proximately caused
death to [Mason].” Id. at 106. The court instructed the
jury that it should answer the special interrogatory
only if it ﬁrst found Alexander guilty of ﬁrst-degree
murder. 82 N.E.3d at 105-06; Doc. 10-9 at 1009-1011. A
defendant convicted of ﬁrst-degree murder without the
ﬁrearm enhancement is subject to twenty-year minimum sentence and a sixty-year maximum sentence,
while a ﬁrst-degree murder conviction with the enhancement results in a higher minimum (forty-ﬁve
years) and maximum sentence (life). See 730 ILCS 5/58-1(a)(1)(d)(iii); People v. Sharpe, 839 N.E.2d 492, 496
(Ill. 2005) (explaining how the ﬁrearm enhancement
works).
The court provided the jury with two verdict
forms—“guilty” and “not guilty”—for ﬁrst-degree murder. 82 N.E.3d at 102, 106; Doc. 10-9 at 1012-1013. The
court also provided two verdict forms for the special
interrogatory, allowing the jury to ﬁnd that the State
had “proven” or “not proven” that Alexander personally
discharged the ﬁrearm that caused Mason’s death. 82
N.E.3d at 102, 106; Doc. 10-9 at 1014-1015.
The jury found Alexander guilty of first-degree
murder, Doc. 1-5 at 2, but answered the special

App. 6
interrogatory in the negative, ﬁnding that the State
did not prove that Alexander personally discharged
the ﬁrearm that caused Mason’s death, Doc. 1-6 at 2.
Alexander moved for a new trial, “arguing that the
jury’s [guilty] verdict was inconsistent [with its negative] ﬁnding in the special interrogatory.” 82 N.E.3d at
102. The trial court denied the motion. Ibid.
Alexander raised several challenges to his conviction on appeal, two of which are pertinent here: “(1) his
ﬁrst degree murder conviction should be set aside because of the jury’s ﬁnding on the special interrogatory,
[and] (2) he was denied his right to a fair trial where
the jury instructions implied that he could be guilty
under a theory of accountability even though no accountability instruction was given.” Ibid. The appellate
court afﬁrmed. Id. at 103-07. The Supreme Court of Illinois denied leave to appeal, People v. Alexander, 93
N.E.3d 1088 (Ill. 2017) (reproduced at Doc. 10-6), and
the Supreme Court of the United States denied certiorari, Alexander v. Illinois, 138 S. Ct. 1336 (2018) (reproduced at Doc. 10-7).
Discussion
Alexander’s habeas petition asserts two grounds
for relief.
I.

Jury Instructions

Alexander claims that the jury instructions violated
his due process right to a fair trial by misleadingly

App. 7
implying that the jury could convict him based on an
accountability theory. Doc. 1 at 5, 31-36. That claim is
procedurally defaulted because, as Alexander concedes
and as the state appellate court recognized, he waived
the claim by not pressing it at trial. Doc. 14 at 9-12; 82
N.E.3d at 107 (noting that Alexander “acknowledge[d]
he [wa]s raising th[e] issue for the ﬁrst time on appeal
and ask[ed] [the court] to consider the issue under the
plain-error doctrine”).
“When the last state court to issue an opinion on a
petitioner’s federal claim has resolved that claim on an
adequate and independent state ground, federal habeas review of the claim is foreclosed. Typically this occurs when the petitioner failed to comply with a state
procedural rule and the state court relied on that procedural default to refrain from reaching the merits of
the federal claim.” Miranda v. Leibach, 394 F.3d 984,
991-92 (7th Cir. 2005) (internal citation omitted). A
state reviewing court’s determination that a petitioner
waived or forfeited a claim is “an adequate and independent state ground for a decision.” Franklin v.
Gilmore, 188 F.3d 877, 886 (7th Cir. 1999); see also
Richardson v. Lemke, 745 F.3d 258, 268 (7th Cir. 2014)
(holding that a federal habeas claim is “procedurally
defaulted through a petitioner’s initial failure to preserve it with an objection, even if the petitioner later
does attempt to present it for review”); Whitehead v.
Cowan, 263 F.3d 708, 727 (7th Cir. 2001) (“When [the
petitioner] raised his . . . claims on direct appeal, the
Illinois Supreme Court determined they were waived
because [he] had not objected . . . during trial or in his

App. 8
post-trial brief. . . . The [Court’s] ruling thus constitutes an independent and adequate state ground for its
decision, and bars federal review of the issue.”) (citation omitted).
The appellate court’s ﬁnding that Alexander
waived his challenge to the jury instructions is an adequate and independent state ground that precludes
federal habeas review. True enough, the appellate
court reviewed the challenge under the plain error doctrine and found no error, 82 N.E.3d at 107, but the fact
that the court conducted plain error review does not
relieve Alexander of the procedural default. See Kaczmarek v. Rednour, 627 F.3d 586, 592 (7th Cir. 2010)
(“We consistently have held that where a state court
reviews a federal constitutional claim for plain error
because of a state procedural bar . . . , that limited review does not constitute a decision on the merits. . . .
Therefore, we conclude that the waiver rule also was
an adequate state law ground.”); Rodriguez v. McAdory,
318 F.3d 733, 735-36 (7th Cir. 2003) (“Although a state
court’s review of whether an error is plain often entails
at least limited review of the merits, that limited review is at most entangled with the merits and certainly not entirely dependent on the merits. Thus the
state court’s plain error review of [petitioner’s] claims
did not undo his procedural default.”) (internal quotation marks and citations omitted).
A habeas petitioner may overcome a procedural
default by: (1) demonstrating cause and prejudice; or
(2) showing that the habeas court’s failure to consider
the claim would result in a fundamental miscarriage

App. 9
of justice. See House v. Bell, 547 U.S. 518, 536 (2006);
Smith v. McKee, 598 F.3d 374, 382 (7th Cir. 2010). Alexander does not argue that either exception to the
procedural default rule applies, so any such argument
is forfeited. See Perruquet v. Briley, 390 F.3d 505, 515
(7th Cir. 2004) (holding that the petitioner bears the
burden of demonstrating an exception to procedural
default); Franklin v. Gilmore, 188 F.3d 877, 884 (7th
Cir. 1999) (“[P]rocedural default will be excused if a
defendant can show that a failure to review the defendant’s claims would result in a fundamental miscarriage of justice. Franklin, however, does not make this
argument and we will not make it for him.”) (citation
omitted).
II.

Guilt Beyond a Reasonable Doubt

Alexander also claims that he was convicted of
ﬁrst-degree murder without proof beyond a reasonable
doubt because discharging the ﬁrearm that killed Mason is an element of his ﬁrst-degree murder charge and
the jury found in the special interrogatory that he did
not discharge the ﬁrearm that killed Mason. Doc. 1 at
5, 14-31. Because the state appellate court adjudicated
that claim on the merits, 82 N.E.3d at 102-06, it is subject to the standard codiﬁed in 28 U.S.C. § 2254(d).
“Federal habeas relief may not be granted for
claims subject to § 2254(d) unless it is shown that the
earlier state court’s decision ‘was contrary to’ federal
law then clearly established in the holdings of th[e]
[Supreme] Court, § 2254(d)(1); or that it ‘involved an

App. 10
unreasonable application of ’ such law, § 2254(d)(1); or
that it ‘was based on an unreasonable determination of
the facts’ in light of the record before the state court,
§ 2254(d)(2).” Harrington v. Richter, 562 U.S. 86, 100
(2011) (citation omitted); see also Woods v. Etherton,
136 S. Ct. 1149, 1151 (2016); Gilbert v. McCulloch, 776
F.3d 487, 492 (7th Cir. 2015). Alexander does not dispute any of the facts upon which the state appellate
court relied in rejecting his claim, so the court considers it solely under § 2254(d)(1).
A state court’s decision is “contrary to” clearly established federal law within the meaning of § 2254(d)(1)
if the court “applies the wrong legal standard established by Supreme Court precedent or decides a case
differently than the Supreme Court on materially indistinguishable facts.” Kamlager v. Pollard, 715 F.3d
1010, 1015 (7th Cir. 2013) (citing Bell v. Cone, 535 U.S.
685, 694 (2002)). “Alternatively, a state court decision
involves an ‘unreasonable application of ’ federal law
[under § 2254(d)(1)] if the state court ‘correctly identiﬁes the governing legal principle . . . but unreasonably
applies it to the facts of the particular case.’ ” Id. at
1015-16 (ellipsis in original) (citing Bell, 535 U.S. at
694). To obtain relief under § 2254(d)(1), “a state prisoner must show that the state court’s ruling on the
claim being presented in federal court was so lacking
in justiﬁcation that there was an error well understood
and comprehended in existing law beyond any possibility for fairminded disagreement.” White v. Wheeler,
136 S. Ct. 456, 460 (2015) (internal quotation marks
omitted). The “lack of a Supreme Court decision on

App. 11
nearly identical facts does not by itself mean that there
is no clearly established federal law, since ‘a general
standard’ from [the Supreme Court’s] cases can supply
such law,” Gilbert, 776 F.3d at 491 (alteration in original) (quoting Marshall v. Rodgers, 569 U.S. 58, 62
(2013)), but “a federal habeas court may overturn a
state court’s application of federal law only if it is so
erroneous that there is no possibility fairminded jurists could disagree that the state court’s decision conﬂicts with th[e] [Supreme] Court’s precedents.” Nevada
v. Jackson, 569 U.S. 505, 508-09 (2013) (internal quotation marks omitted).
Alexander argues that the appellate court’s decision is contrary to Alleyne v. United States, 570 U.S. 99
(2013), because the State failed to prove, as an element
of ﬁrst-degree murder, that he personally discharged
the ﬁrearm that caused Mason’s death. Doc. 1 at 12,
1426. True enough, Alleyne holds that the Constitution
“requires that each element of a crime be proved to a
jury beyond a reasonable doubt.” 570 U.S. at 104. But
Alexander’s argument fails because, contrary to his
premise, personal discharge of a ﬁrearm is not an element of ﬁrst-degree murder in Illinois; rather, personal
discharge of a ﬁrearm is a sentencing enhancement to
ﬁrst-degree murder that, if found beyond a reasonable
doubt by the jury, results in a higher sentencing range.
The appellate court held as much, 82 N.E.3d at 106
(“[P]ersonal discharge of a ﬁrearm is not an element of
ﬁrst degree murder even when the victim dies from a
gunshot”), and its holding is consistent with Sharpe,
where the Supreme Court of Illinois clearly explained

App. 12
that personally discharging a ﬁrearm is not an element
of ﬁrst-degree murder:
Even a casual consideration of the issue reveals that for the 25-to-life [ﬁrearm] enhancement [to ﬁrst-degree murder] to apply, there
are indeed additional facts which must be
proven: that the perpetrator personally discharged a ﬁrearm during the commission of
the offense and that he “caused great bodily
harm, permanent disability, permanent disﬁgurement, or death to another person”
thereby. 730 ILCS 5/5-8-1(a)(1)(d)(iii). This is
not a case in which different sentences are imposed for crimes with identical elements.
Sharpe, 839 N.E.2d at 520; see 720 ILCS 5/9-1(a) (“A
person who kills an individual without lawful justiﬁcation commits ﬁrst degree murder if, in performing the
acts which cause the death: (1) he . . . either intends to
kill or do great bodily harm to that individual or another, or knows that such acts will cause death to that
individual or another; or (2) he . . . knows that such
acts create a strong probability of death or great bodily
harm to that individual or another. . . .”).
Given all this, the appellate court’s afﬁrmance of
Alexander’s ﬁrst-degree murder conviction, despite the
jury’s negative ﬁnding on the ﬁrearm enhancement, is
not contrary to Alleyne. See Evans v. Dorethy, 833 F.3d
758, 760-62 (7th Cir. 2016) (rejecting the petitioner’s
argument that the state court’s afﬁrmance of his felony
murder conviction without a jury ﬁnding of “independent felonious intent” violated Alleyne, reasoning that

App. 13
“independent felonious intent” is not an element of
felony murder under Illinois law). Indeed, as the appellate court recognized, the trial court faithfully implemented Alleyne by separately submitting to the jury
the ﬁrst-degree murder charge and the ﬁrearm enhancement. 82 N.E.3d at 107 (“[P]ersonal discharge of
a ﬁrearm is not an element needed to convict [Alexander] of ﬁrst degree murder. However, pursuant to . . .
Alleyne, it was a fact that needed to be submitted to
the jury in order for the State to seek the ﬁrearm enhancement sentence.”). Because the jury rejected the
enhancement, the trial court’s forty-year sentence
properly fell within the statutory range for ﬁrst-degree
murder (20-60 years) and not ﬁrst-degree murder with
the enhancement (45 years to life). See 725 ILCS 5/1113(c-5) (“Failure to prove the fact beyond a reasonable
doubt is not a bar to a conviction for commission of the
offense, but is a bar to increasing, based on that fact,
the range of penalties for the offense beyond the statutory maximum that could otherwise be imposed for
that offense.”).
Alexander next argues that the appellate court’s
afﬁrmance of his conviction unreasonably applied
United States v. Powell, 469 U.S. 57 (1984). Doc. 1 at 12,
26-31. Alexander’s point is this: Because the State’s
theory of the case was that he ﬁred the shot that killed
Mason, and because the jury returned a negative ﬁnding on the ﬁrearm enhancement, the ﬁrst-degree murder conviction is fatally inconsistent with the acquittal
on the ﬁrearm enhancement. The appellate court’s rejection of that argument, 82 N.E.3d at 104, does not

App. 14
unreasonably apply Powell; to the contrary, it faithfully
implements Powell.
As Alexander recognizes, Doc. 1 at 26-27, Powell
holds that inconsistent verdicts are permitted, not
forbidden. The defendant in Powell argued that her
convictions for using a telephone to facilitate cocaine
possession offenses were fatally inconsistent with her
acquittals for the cocaine possession offenses themselves. 469 U.S. at 60. The Court rejected that argument, reafﬁrming its holding in Dunn v. United States,
284 U.S. 390 (1932), that inconsistent verdicts do not
violate the Constitution—even where, as in Powell, the
jury acquits on a predicate offense and convicts on a
compound offense. 469 U.S. at 64-69. Accordingly, even
if Alexander’s ﬁrst-degree murder conviction was inconsistent with his acquittal on the ﬁrearm enhancement, Powell holds that the Constitution allows that
inconsistency.
Alexander retorts that “Powell only speaks to inconsistencies between two different counts . . . [and,
h]ere, there was an inconsistency of verdicts within the
same count.” Doc. 1 at 13. That argument rests on the
same mistaken premise—that personal discharge of
a firearm is an element of first-degree murder—as
his Alleyne argument. Even putting that aside, Alexander has not cited, and the court cannot ﬁnd, any Supreme Court decision holding that a conviction on an
underlying offense cannot stand if there is an acquittal
on a sentencing enhancement where the same factual
theory underlies both the offense and the enhancement. Such a decision would appear incompatible with

App. 15
Powell, which rejected a similar argument involving
predicate and compound offenses. More to the point on
federal habeas review, absent such a Supreme Court
decision, the state appellate court’s rejection of Alexander’s Powell argument cannot be deemed to have unreasonably applied clearly established federal law. See
Wright v. Van Patten, 552 U.S. 120, 126 (2008) (“Because our cases give no clear answer to the question
presented, let alone one in [the habeas petitioner’s] favor, it cannot be said that the state court unreasonably
applied clearly established Federal law.”) (internal
quotation marks omitted, cleaned up).
Conclusion
Alexander’s habeas petition is denied. Habeas
Rule 11(a) provides that the district court “must issue
or deny a certiﬁcate of appealability [(‘COA’)] when it
enters a ﬁnal order adverse to the applicant.” Regarding the procedurally defaulted claim, the applicable
standard is:
When the district court denies a habeas petition on procedural grounds without reaching the prisoner’s underlying constitutional
claim, a COA should issue when the prisoner
shows, at least, that jurists of reason would
ﬁnd it debatable whether the petition states a
valid claim of the denial of a constitutional
right and that jurists of reason would ﬁnd it
debatable whether the district court was correct in its procedural ruling.

App. 16
Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also
Anderson v. Litscher, 281 F.3d 672, 673-74 (7th Cir.
2002). Regarding the claim decided on the merits, the
applicable standard is:
To obtain a COA under § 2253(c), a habeas
prisoner must make a substantial showing of
the denial of a constitutional right, a demonstration that . . . includes showing that reasonable jurists could debate whether (or, for
that matter, agree that) the petition should
have been resolved in a different manner or
that the issues presented were adequate to
deserve encouragement to proceed further.
Slack, 529 U.S. at 483-84 (internal quotation marks
omitted); see also Peterson v. Douma, 751 F.3d 524, 528
(7th Cir. 2014); Lavin v. Rednour, 641 F.3d 830, 832
(7th Cir. 2011).
This court’s denial of Alexander’s habeas claims
relies on settled precedents and principles. The application of those precedents and principles to Alexander’s claims does not present difficult or close
questions, so his petition does not meet the applicable standard for granting a certificate of appealability. The court therefore denies a certificate of
appealability.
March 11, 2020

/s/ Gary Feinerman
United States District Judge

App. 17
IN THE UNITED STATES DISTRICT COURT
FOR THE
NORTHERN DISTRICT OF ILLINOIS
Kory Alexander,
Petitioner(s),

Case No. 19 C 538
Judge Gary Feinerman

v.
Alex Jones,
Respondent(s).
JUDGMENT IN A CIVIL CASE
(Filed Mar. 11, 2020)
Judgment is hereby entered (check appropriate box):
⬜

in favor of plaintiff(s)
and against defendant(s)
in the amount of $
,
which ⬜ includes
pre-judgment interest.
⬜ does not include pre-judgment
interest.

Post judgment interest accrues on that amount at
the rate provided by law from the date of this judgment.
Plaintiff(s) shall recover costs from defendant(s).
⬜

in favor of defendant(s)
and against plaintiff(s)

Defendant(s) shall recover costs from plaintiff(s).

App. 18
☒ other: Judgment is entered in favor of Respondent Alex Jones and against Petitioner Kory
Alexander. Petitioner’s habeas petition is denied and
a certiﬁcate of appealability will not issue.
This action was (check one):
⬜ tried by a jury with Judge
jury has rendered a verdict.

presiding, and the

⬜ tried by Judge
without a jury and the above
decision was reached.
☒ decided by Judge Gary Feinerman.
Date: 3/11/2020

Thomas G. Bruton, Clerk of Court
s/s Jackie Deanes, Deputy Clerk

App. 19
Illinois Official Reports
Appellate Court
People v. Alexander, 2017 IL App (1st) 142170
Appellate Court
Caption

THE PEOPLE OF THE STATE OF
ILLINOIS, Plaintiff-Appellee, v.
KORY ALEXANDER,
Defendant-Appellant.

District & No.

First District, First Division
Docket No. 1-14-2170

Filed
June 5, 2017
Rehearing denied July 7, 2017
Decision Under
Review

Appeal from the Circuit Court of
Cook County, No. 12-CR-2253; the
Hon. Paula M. Daleo, Judge, presiding.

Judgment

Affirmed.

Counsel on
Appeal

Barney & Hourihane, LLP, of
Winnetka (Ian M. Barney and
Justice Hourihane, of counsel),
for appellant.
Kimberly M. Foxx, State’s Attorney,
of Chicago (Alan J. Spellberg, Miles
J. Keleher, and Margaret G. Lustig,
Assistant State’s Attorneys, of
counsel), for the People.

App. 20
Panel

JUSTICE HARRIS delivered the
judgment of the court, with
opinion. Presiding Justice Connors
and Justice Simon concurred in
the judgment and opinion.
OPINION

¶ 1 The defendant-appellant, Kory Alexander, was
found guilty by a jury of first degree murder. However,
in a special interrogatory, the jury found that it had not
been proven that defendant discharged a firearm during the commission of the offense. The trial court sentenced defendant to 40 years in prison on the first
degree murder conviction.
¶ 2 Defendant raises several issues on appeal. Defendant argues (1) his first degree murder conviction
should be set aside because of the jury’s finding on the
special interrogatory, (2) he was denied his right to a
fair trial where the jury instructions implied that he
could be guilty under a theory of accountability even
though no accountability instruction was given, (3) the
trial court committed reversible error when it refused
to give defendant’s “mere presence” jury instruction,
and (4) the trial court committed reversible error when
it instructed the jury on motive without first consulting the parties.
¶ 3 Based on the record before this court, we affirm
defendant’s conviction for first degree murder and find
no errors regarding the trial court’s handling of the
jury instructions or the jury’s question.

App. 21
¶4

JURISDICTION

¶ 5 On March 7, 2014, a jury found defendant guilty
of first degree murder. On April 1, 2014, he filed a motion for judgment of acquittal or, in the alternative, a
new trial. On June 6, 2014, the trial court denied defendant’s posttrial motion and sentenced him to consecutive terms of 40 years’ imprisonment. Defendant
timely filed his notice of appeal on the same day. Accordingly, this court has jurisdiction pursuant to article VI, section 6, of the Illinois Constitution and Illinois
Supreme Court Rules 603 and 606, governing appeals
from a final judgment of conviction in a criminal case
entered below. Ill. Const. 1970, art. VI, § 6; Ill. S. Ct. Rs.
603, 606 (eff. Feb. 6, 2013).
¶6

BACKGROUND

¶ 7 Around midnight on November 22, 2011, the victim, Darion Mason, prepared to take his mother, Denise Mason, to her work. As the pair walked to the
victim’s car, Denise realized she forgot her earrings.
She ran back into the house to retrieve the earrings,
and the victim kept walking to his car. After retrieving
the earrings, Denise was approaching the victim’s car
when she observed the silhouettes of her son in the
driver’s seat and an unknown person in the backseat.
As she opened the door, shots rang out, and Denise realized someone was shooting her son. She heard two
gun shots and screamed “[H]elp my son, he’s shooting
my son.” The police arrived and arrested defendant not
far from the scene of the shooting. On December 22,

App. 22
2011, the defendant was charged with six counts of
first degree murder, two counts of unlawful use of a
weapon by a felon, and four counts of aggravated unlawful use of a weapon.
¶ 8 At trial, the State called several responding police officers to testify as to the night’s events. Bellwood
police officer Eddie Morales testified that on November
22, 2011, at approximately midnight, he was on patrol
when he heard two or three gunshots. The gunshots
were coming from south of where he was located. In
response, he turned off his headlights to conceal his vehicle and proceeded to the intersection of Bellwood Avenue and Jackson Street, which was approximately
100 feet away from him. Within seconds of arriving at
the intersection, he noticed an individual in all black
clothing wearing a dark hooded sweatshirt running
northbound (toward the officer) on the eastside of Bellwood Avenue. Officer Morales was approximately 50 to
70 feet away and did not see anyone else at that time.
It appeared to the officer that the person had something in his right hand. While the individual was still
some distance from Officer Morales, he exited his vehicle and demanded the individual stop.
¶ 9 The person did not respond and proceeded to turn
eastbound on Jackson Street toward an alley. The person turned southbound into the mouth of the east alley
on the 1000 block of Bellwood Avenue. Officer Morales
drove his vehicle up to Van Buren Street and made a
left-hand turn in an effort to continue to pursue this
individual. He continued eastbound on Van Buren
Street and then parked at the mouth of the alley. He

App. 23
then traveled on foot eastbound on Van Buren Street
to Bohland Avenue, which is one block east of Bellwood
Avenue. After losing track of the individual, Officer
Morales saw the individual crossing Bohland Avenue.
He continued eastbound until he saw a person cross
over the alley. This individual was physically consistent with the person he had seen crossing Bohland
Avenue. At some point, Officer Morales met up with
other officers on the 1000 block of Linden Avenue
where they detained an individual near the school on
that block. In court, Officer Morales identified the defendant as the individual being detained. Approximately five to seven minutes passed between the time
when Officer Morales initially heard the shots and the
time that defendant was in custody. During that time,
the officer had seen a car drive the wrong way down
Jackson Street but could not identify it.
¶ 10 Officer Morales retraced the subject’s steps back
to where he initially saw the person and, in doing so,
discovered several items. He found a black hooded
sweatshirt and two gloves on the 1000 block of
Bohland Avenue in the general area where he saw the
person running. In the rear of that residence, he found
a black, semiautomatic handgun laying in the yard.
¶ 11 Bellwood police officer Scott Guliano testified
that he heard a radio call from Officer Morales. Officer
Morales made a request for additional units, and Officer Guliano responded immediately. In his marked
car, he activated his emergency lights and sirens while
traveling at a high rate of speed toward the area. He
parked his vehicle in an alley just before Linden

App. 24
Avenue and just off Jackson Street. He exited his car
and began searching for the suspect. At this point, he
was joined by Officer Kevin Barnett, and the two proceeded to walk down Linden Avenue. As they exited a
gangway approximately three houses in on Linden Avenue, Officer Guliano saw a black male with a black Tshirt and black jeans exiting a gangway. The officer’s
yelled, “Stop” and “Police.” The black male then ran
across the street. Officer Guliano identified the individual as defendant, Kory Alexander. Defendant was
alone that night, and it was only 35 to 38 degrees outside. The officers gave chase and eventually tackled the
defendant near an elementary school.
¶ 12 Monica Hemingway testified that she was
parked in front of her house on Linden Avenue near
Jackson Street with her boyfriend in the early morning
hours of November 22, 2011. The two were parked on
the west side of the street. An elementary school is on
the east side of the street. While in the car, she noticed
police officers at different locations on the block. Monica then noticed an individual who was peeking out
from a walkway on the side of her house. She described
the individual as African-American but could not see
any other features. She could not see his face. She contacted the police because she believed this person was
trying to conceal himself. The individual then began
walking slowly south on Linden Avenue. The police
saw him and told him to stop. In response to the police’s shouts, Monica saw the individual run but he was
caught by police. She did not see anyone else out that
night.

App. 25
¶ 13 Officer Kevin Barnett testified that he was an
officer with the Village of Bellwood and was on routine
patrol on the midnight shift the night of the victim’s
death. In response to a radio distress call, he traveled
to the intersection of Jackson Street and Linden Avenue in Bellwood. Upon arriving, he made contact with
Officer Guliano. While the two were walking, Officer
Barnett saw an individual run out from a gangway.
They gave chase and eventually detained the individual. Prior to coining into contact with Officer Guliano,
Officer Barnett saw a man in a yellow jacket exiting an
apartment building on Linden Avenue. The officer
never obtained any information from the individual because the man was obese and did not match the description of the individual for whom they were looking.
¶ 14 Officer Shawn Clark was employed with the Village of Bellwood and was working the midnight shift
on November 22, 2011, when he received Officer Morales’s radio call. Officer Clark traveled to the scene of
the shooting. Upon arrival, he observed a Jeep with an
open driver’s door and the victim in the driver’s seat,
feet on the ground, head back, and unresponsive.
¶ 15 Hillside police corporal Michael Duffek testified
he was on routine patrol on November 22 when he responded to the Bellwood police’s call for assistance.
Corporal Duffek was on Linden Avenue when he observed the defendant run across Linden Avenue while
being chased by other officers. He observed officers
tackle defendant in the grassy area near the school on
Linden Avenue.

App. 26
¶ 16 Master Sergeant Jack Bridson testified that he
was employed by Bellwood police as a master sergeant
in investigations and was called to the scene. He initially examined the scene where the victim was shot
and located three spent shell casings. He then relocated to 3608 Jackson Street where additional evidence was located. He collected a hooded sweatshirt, a
leather glove, and a brown glove near the sweatshirt,
which were admitted into evidence. He also recovered
a Hi-Point .40-caliber handgun, which was admitted
into evidence.
¶ 17 Detective Randy Bucker was a detective with
the Bellwood Police Department and was on-call when
he received an assignment regarding the shooting. He
administered a gunshot residue test and a buccal swab
of defendant. He identified the shirt and jeans, which
were taken off of defendant the morning he was arrested.
¶ 18 Dr. James Filkins testified that he performed
the autopsy on the victim. The victim had two gunshot
wounds to the left side of his head. The first bullet entered the skull and traveled through the brainstem
causing death. The second gunshot entered the scalp;
it traveled around the head between the scalp and the
skull before exiting the back of the head. He could not
determine how close the gun was to the victim’s head
when it was fired.
¶ 19 Dr. Mary Wong, a forensic scientist employed by
the Illinois State Police, testified that she was asked
to perform gunshot residue tests on various items

App. 27
recovered by the police. She tested the exterior of the
two gloves, the exterior of both sleeves of the hooded
sweatshirt, and defendant’s pants for gunshot residue.
Samples were also taken of defendant’s hands to analyze for residue. The tests from defendant’s hands were
negative, as were the tests done on the hooded sweatshirt. The test on the leather glove was negative, while
the test on the brown glove was positive.
¶ 20 Tonia Brubaker, a firearm examiner with the Illinois State Police, examined the Hi-Point handgun recovered from between the two houses near where the
defendant was arrested. She also examined the bullets
recovered from the victim’s body. She concluded that
shell casings recovered from the scene along with one
of the bullets from the victim’s body were fired from
the recovered gun.
¶ 21 Eleanor Giacometti, a forensic scientist with the
Illinois State Police, examined the firearm for latent
fingerprints. She found one latent print located underneath the plastic grip on the handgun. She had to unscrew the grip to see the print and could not determine
how long it had been there. It did not match the defendant.
¶ 22 Karina Gomez, another forensic scientist for the
Illinois State Police, performed DNA testing. She analyzed DNA samples from the hooded sweatshirt and
the gloves and compared them to the DNA of the defendant and the victim. The sample from the sweatshirt revealed a mixture of at least three people. She
was able to extract a major human DNA profile and a

App. 28
minor human DNA profile. A major DNA profile occurs
where one person deposits more DNA than another
and a minor profile is essentially less DNA than what
has been contributed by the major profile. The major
DNA profile did not match either the defendant’s or
victim’s DNA. Gomez ran the major profile through a
DNA database of convicted offenders, missing persons,
relatives of missing persons, unidentified remains, and
Illinois State Police staff members, which revealed an
association between the major profile and a profile in
the database, one Stanley Street. As to the minor DNA
profile, Gomez determined that the defendant could
not be excluded from having contributed to the profile.
¶ 23 Gomez was also able to recover DNA samples
from both gloves. As to the brown glove, the sample
contained a mixture of DNA profiles (though no major
or minor ones) from which defendant could not be excluded. However, the victim was excluded. As to the
sample from the leather glove, she was able to extract
a major human profile from which defendant could not
be excluded.
¶ 24 The defense sought to reveal the identity of the
person to whom the major DNA profile on the hooded
sweatshirt matched: Stanley Street. The court ruled
that there was no confirmatory testing done to determine if the DNA was actually that of Stanley Street
and therefore the defendant could not reveal the identity of the matching profile to the jury. As an offer of
proof, the defendant questioned Gomez about the fact
the major profile found on the hooded sweatshirt was

App. 29
run through a database and a match was made, but the
match could not be confirmed.
¶ 25 Defendant did not present evidence, testimonial
or otherwise.
¶ 26 At the jury instruction conference, the defense
sought to include a non-Illinois Pattern “mere presence” Jury Instruction. The court denied this request
noting that evidence did not support the presence of
any other individual at the scene.
¶ 27 Following closing arguments, the jury was given
two verdict forms on first degree murder and two verdict forms regarding the special interrogatory for purposes of the firearm sentencing enhancement. After
instructing the jury on the law, while the jury exited to
begin deliberations, a juror asked the court if she could
ask a question. The following exchange occurred:
“JUROR:

We have a question.

THE COURT:

Of whom?

JUROR: Why we can’t [sic] hear any motive
in this case?
THE COURT: You heard the State does not
have to prove motive in this case.”
This question was asked and answered in open court
with all parties present. The court did not discuss its
answer with either party prior to its pronouncement.
After the jury retired, defense counsel objected to
the court’s communication with the jury and the substance of the response. Defense counsel argued that its

App. 30
position was that the response to the question should
have been that the jury had the instructions and the
evidence and they should continue to deliberate. The
objection was overruled.
¶ 28 The jury returned a verdict of guilty on the first
degree murder charge. In addition, the jury found that
the allegation was not proven that during the commission of the offense of first degree murder, defendant
personally discharged a firearm that proximately
caused the death of the victim. Defendant filed a motion for a new trial, arguing that the jury’s verdict was
inconsistent based on the finding in the special interrogatory. The motion also argued that the juror’s motive question was improperly answered by the trial
court. The trial court denied both motions. Defendant
was sentenced to 40 years in the Illinois Department
of Corrections on the first degree murder conviction.
¶ 29 Defendant timely filed his notice of appeal.
¶ 30

ANALYSIS

¶ 31 Defendant raises several issues on appeal: (1) his
first degree murder conviction should be set aside because of the jury’s finding on the special interrogatory,
(2) he was denied his right to a fair trial where the jury
instructions implied that he could be guilty under a
theory of accountability even though no accountability
instruction was given, (3) the trial court committed
reversible error when it refused to give defendant’s
“mere presence” instruction, and (4) the trial court

App. 31
committed reversible error when it instructed the jury
on motive without first consulting the parties.
¶ 32 In his first issue, defendant claims his first degree murder conviction must be vacated because the
jury found the State failed to prove defendant personally discharged a firearm during the commission of the
offense of first degree murder. When the trial court
gave the jury the law and jury instructions, the jury
was provided with a special interrogatory that asked
whether the State had proven beyond a reasonable
doubt that defendant personally discharged a firearm
during the commission of the charged offense of first
degree murder. While the jury returned a guilty verdict
on the first degree murder charge, they also answered
the special interrogatory in the negative.
¶ 33 Before this court, defendant argues that committing murder by personally discharging a firearm is
an aggravated form of murder that the State must
prove in total. He thus concludes that the State’s failure to prove the personal discharge element requires
reversal of his murder conviction. Defendant suggests
the applicable standard of review is the same as if he
were challenging his conviction based on the sufficiency of the evidence. People v. Wheeler, 226 Ill. 2d 92,
113 (2007). However, defendant is not challenging the
sufficiency of the evidence used to convict him and instead seeks to use the inconsistent special interrogatory finding to attack the guilty verdict. We believe this
issue presents a pure question of law, thus our review
is de novo. People ex rel. Glasgow v. Carlson, 2016 IL
120544, ¶ 16.

App. 32
¶ 34 in arguing that his first degree murder conviction must be vacated, defendant relies on Alleyne v.
United States, 570 U.S. ___, 133 S. Ct. 2151 (2013) (plurality op.). In Alleyne, the defendant was charged with
multiple felonies including robbery affecting interstate
commerce (18 U.S.C. § 1951(a) (2006)) and using or carrying a firearm in relation to a crime of violence (18
U.S.C. § 924(c)(1)(A) (2006)). Alleyne, 570 U.S. at ___,
133 S. Ct. at 2155. Section 924(c)(1)(A) provided for different terms of imprisonment depending on the factual
circumstances: (i) imprisonment of not less than five
years, (ii) not less than seven years if the firearm is
brandished, and (iii) not less than 10 years if the firearm is discharged. Id. at ___, 133 S. Ct. at 2155-56. In
convicting the defendant, the jury found that defendant “[u]sed or carried a firearm” but did not indicate a
finding that the firearm was “[b]randished.” (Internal
quotation marks omitted.) Id. at ___, 133 S. Ct. at 2156.
The sentencing report recommended a seven-year sentence, reflecting a mandatory minimum sentence in
cases involving “brandishing.” Id. at ___, 133 S. Ct. at
2156. In overruling defendant’s objection and sentencing him to seven years, the trial court explained “brandishing [is] a sentencing factor that the court could
find by a preponderance of evidence without running
afoul of the Constitution.” Id. at ___, 133 S. Ct. at 2156.
¶ 35 In an opinion written by Justice Thomas, the Supreme Court disagreed “[b]ecause the finding of brandishing increased the penalty to which the defendant
was subjected, it was an element, which had to be
found by the jury beyond a reasonable doubt.” Id. at

App. 33
___, 133 S. Ct. at 2163. In reaching this conclusion, the
Court looked to its recent decision in Apprendi v. New
Jersey, 530 U.S. 466 (2000). In Apprendi, the Court held
that facts exposing a defendant to a greater punishment than otherwise legally prescribed are by definition elements of the offense and must be submitted to
the jury. Apprendi, 530 U.S. at 483 n.10. Relying on Apprendi, the Alleyne Court concluded that “because the
legally prescribed range is the penalty affixed to the
crime, * * * it follows that a fact increasing either end
of the range produces a new penalty and constitutes an
ingredient of the offense.” (Emphasis in original.) Alleyne, 570 U.S. at ___, 133 S. Ct. at 2160. The Alleyne
Court concluded the trial court improperly sentenced
defendant because the “brandishing” element had not
been found by jury. Id. at ___, 133 S. Ct. at 2163-64.
¶ 36 In further support of his position that committing murder by personally discharging a firearm represents an aggravated form of murder, defendant cites
to People v. Peoples, 2015 IL App (1st) 121717. The facts
of Peoples resemble the facts of our case in that the defendant in Peoples was convicted of first degree murder
but not the firearm enhancement. Id. ¶ 55. The Peoples
court reversed and remanded the murder conviction
because the jury was improperly instructed on the theory of accountability. In dicta, the court stated it saw
“no meaningful difference in the language constituting
the offense of first-degree murder and the enhancement language,” and that “[i]t [was] impossible to reconcile the jury’s finding that defendant ‘perform[ed]
the acts which cause[d] death’ to [the victim] with its

App. 34
finding that defendant did not ‘personally discharge[ ]
a firearm that proximately caused [the] death’ ” of the
victim. (Emphasis in original.) Id. ¶ 102. Despite this
recognition, the Peoples court conceded such an outcome did not entitle defendant to reversal of his murder conviction even taking into consideration the
accountability error. Id. ¶ 103.
¶ 37 Defendant argues, pursuant to Alleyne, personal
discharge of a firearm is an element of a new offense of
aggravated first degree murder and, pursuant to Peoples, it would be nonsensical and unfair to allow him to
be convicted as the principal shooter in a murder but
found not to have personally discharged said firearm.
¶ 38 While it may seem nonsensical to allow the
above situation to occur, both the Illinois Supreme
Court and the United States Supreme Court have
stated that such an occurrence does not offend the
constitution and such convictions can stand. In our
supreme court’s decision of People v. Jones, 207 Ill. 2d
122 (2003), it adopted the rule that convictions cannot
be challenged because they are inconsistent with acquittals on other charges. In Jones, our supreme court
adopted the rule enunciated by the United States Supreme Court in United States v. Powell, 469 U.S. 57
(1984), that the United States Constitution does not
require consistency in criminal verdicts. Jones, 207
Ill. 2d at 133-34. In adopting Powell, the Jones court
stated, “defendants in Illinois can no longer challenge
convictions on the sole basis that they are legally inconsistent with acquittals on other charges.” Id. While
defendant seeks to frame the issue in a different light,

App. 35
his argument is based exclusively on using the inconsistent special interrogatory to challenge the guilty
verdict on the first degree murder charge. We adhere
to our supreme court’s decision in Jones that a defendant cannot “challenge convictions on the sole basis that
they are legally inconsistent with acquittals on other
charges.” Id.
¶ 39 Even if defendant’s challenge was not foreclosed
by Jones, his reliance on Alleyne and Peoples is misplaced. Alleyne does not support defendant’s position.
That case stands for the proposition that any fact
which raises the sentencing floor must be proven beyond a reasonable doubt. Alleyne, 570 U.S. at ___, 133
S. Ct. at 2160. The case does not address inconsistent
verdicts or the Powell decision. Moreover, despite defendant’s argument to the contrary, Alleyne and Peoples do not call for the conclusion that murder by
personal discharge of a firearm is a separate, aggravated offense of first degree murder, which requires the
State to prove personal discharge of a firearm in order
to sustain the murder conviction itself.
¶ 40 After discussing the “diametrically opposed”
verdicts, the court in Peoples recognized that such an
inconsistency does not mandate outright reversal of the
murder conviction. Peoples, 2015 IL App (1st) 121717,
¶¶ 102-03 (citing People v. Reed, 396 Ill. App. 3d 636,
646-47 (2009) (guilty verdict on first degree murder
and acquittal on firearm enhancement did not mandate reversal of conviction)). The court further acknowledged that even with the incorrect instruction on
accountability, defendant would still not be entitled to

App. 36
outright reversal of his murder conviction because a
court “may not guess as to why a jury did what it did.”
Id. ¶ 106 (citing People v. Spears, 112 Ill. 2d 396, 409
(1986)). We also disagree with the dicta in Peoples that
there is no meaningful difference between the offense
of first degree murder and the firearm enhancement.
Id. ¶ 102. Illinois courts have previously stated that
even when a victim is killed via a gunshot, proving the
defendant used a firearm is not required to sustain a
murder conviction.
¶ 41 In both People v. Sharpe, 216 Ill. 2d 481 (2005),
and People v. Sawczenko-Dub, 345 Ill. App. 3d 522
(2003), Illinois courts recognized that even when the
victim is killed via a gunshot, the crime of first degree
murder and the firearm enhancement contain separate elements. In Sharpe, the defendant contended
that the crime of first degree murder contained identical elements to the firearm enhancement charge. 216
Ill. 2d at 526. In rejecting this argument the court
stated, “[e]ven a casual consideration of the issue reveals that for the [firearm] enhancement to apply,
there are indeed additional facts which must be
proven: that the perpetrator personally discharged a
firearm during the commission of the offense.” Id.
¶ 42 The court in Sawczenko-Dub made this point
even clearer. In that case, the defendant argued that
the firearm enhancement violated double jeopardy because “she was placed in jeopardy for first degree murder, which depended upon her discharging a firearm,
and then the same factor, discharge of a firearm, subjected her to additional penalties.” 345 Ill. App. 3d at

App. 37
535. In rejecting her contention that she was being
punished more than once for the same offense, the
court stated, “[i]t was irrelevant whether she used a
firearm in committing the murder or not. * * * [The
murder] sentence did not punish her for use of a firearm. Again, she was punished for killing her husband,
however that may have occurred.” (Emphasis added.)
Id. Thus, Sawczenko-Dub and Sharpe demonstrate
that in regard to a first degree murder charge, the
State is not required to prove beyond a reasonable
doubt that the defendant used a firearm, even when
the victim dies from a gunshot.
¶ 43 This is further reinforced by the pattern jury instructions used in this case. The trial court provided
the jury with the following instructions regarding the
charge of first degree:
“To sustain the charge of first degree
murder, the State must prove the following
propositions;
First: That the defendant performed the
acts which caused the death of Darion Mason;
and
Second: That when the defendant did
so, he intended to kill or do great bodily harm
to Darion Mason; or
He knew his acts would cause death to
Darion Mason; or
He knew that his acts created a strong
probability of death or great bodily harm to
Darion Mason.

App. 38
If you find from your considerations of all
the evidence that each one of these propositions has been proved beyond a reasonable
doubt, you should find the defendant guilty.
If you find from your considerations of all
the evidence that any one of these propositions has not been proved beyond a reasonable doubt, you should find the defendant not
guilty.”
The jury was also provided the following instruction
regarding the firearm enhancement:
“The State has also alleged that during
the commission of the offense of first degree
murder that the defendant personally discharged a firearm that proximately caused
death to another person.
If you find the defendant is not guilty of
the offense of first degree murder, you should
not consider the State’s additional allegation
regarding the offense of first degree murder.
If you find that the defendant is guilty of
first degree murder, you should then go on
with your deliberation to decide whether the
State has proved beyond a reasonable doubt
the allegation that during the commission of
the offense of first degree murder the defendant personally discharged a firearm that
proximately caused death to another person.
Accordingly you will be provided with two
verdict forms as to the allegation: ‘We the jury
find the allegation was not proven that during

App. 39
the commission of the offense of first degree
murder, the defendant personally discharged
a firearm that proximately caused death to
another person’ and, ‘We the jury find the allegation was proven that during the commission of the offense of first degree murder the
defendant personally discharged a firearm
that proximately caused death to another person.’
From these two (2) verdict forms, you
should select the one verdict form that reflects
your verdict and sign it as I have stated. Do
not write on the other verdict form. Sign only
one of the verdict forms.
Your agreement on your verdict as to the
allegation must be unanimous. Your verdict
must be in writing and signed by all of you,
including the foreperson.”
In comparing the two instructions, the distinction becomes obvious. The jury instruction on first degree
murder does not mention the use of firearm. As the
Sawczenko-Dub court explained, “[the defendant’s] use
of the firearm was not a crime in and of itself. The
crime was the extinction of a human life. . . . The gun
was simply the method selected by [the defendant]
to accomplish the crime, and the particular method
selected subjects [him] to an additional penalty.”
(Internal quotation marks omitted.) 345 Ill. App. 3d
at 536 (quoting People v. Hutchins, 109 Cal. Rptr. 2d
643, 647 (Ct. App. 2001)). As stated in the jury instructions and explained by the court’s in Sawczenko-Dub
and Sharpe, personal discharge of a firearm is not an

App. 40
element of first degree murder even when the victim
dies from a gunshot.
¶ 44 Based on the above, even if defendant’s claim
was not barred by Jones, his argument still fails because the State did not have to prove defendant personally discharged a firearm causing the death of the
victim in order to obtain a first degree murder conviction. Accordingly, the jury’s finding on the special interrogatory does not necessitate the vacatur of his first
degree murder conviction. We therefore affirm the first
degree murder conviction.
¶ 45 Defendant next contends that he was denied his
right to a fair trial when the jury was implicitly instructed that it could convict based on a theory of accountability. Defendant acknowledges he is raising
this issue for the first time on appeal and asks us to
consider the issue under the plain-error doctrine.
¶ 46 When an error is alleged for the first time on direct appeal, the appellate court will review the issue if
the record reflects “plain error.” People v. Laugharn,
297 Ill. App. 3d 807, 811-12 (1998). However, the plain
error doctrine is not a “general saving clause preserving for review all errors affecting substantial rights
whether or not they have been brought to the attention
of the trial court.” (Internal quotation marks omitted.)
People v. Herron, 215 III. 2d 167, 177 (2005). Plain error
occurs where there is an error in the record and (1) the
evidence is close, regardless of the seriousness of the
error, or (2) the error is serious, regardless of the closeness of the evidence. Id. at 186-87. The first step in the

App. 41
plain error analysis is to determine whether error occurred at all. People v. Harris, 225 Ill. 2d 1, 31 (2007).
Where no error occurred at all, there can be no plain
error. People v. Sims, 192 Ill. 2d 592, 621 (2000).
¶ 47 After a review of the record, we find no error and
reject defendant’s contention that the jury was implicitly instructed on a theory of accountability. Defendant
argues “parsing the element of personal discharge of a
firearm from the remaining elements of murder in the
jury instructions conveyed to the jury that defendant
could be held criminally responsible for murder even if
he did not fire the shots that killed the victim.” As we
have stated above, personal discharge of a firearm is
not an element needed to convict defendant of first degree murder. However, pursuant to Apprendi and Alleyne, it was a fact that needed to be submitted to the
jury in order for the State to seek the firearm enhancement sentence. Apprendi, 530 U.S. at 483; Alleyne, 570
U.S. at ___, 133 S. Ct. at 2155. There was no error in
these instructions, and we reject defendant’s contention that the jury was implicitly instructed on a theory
of accountability.
¶ 48 The defendant also argues that the trial court
erred when it failed to tender defendant’s “mere presence” instruction to the jury. The “mere presence” instruction was not an Illinois Pattern Jury Instruction
(IPI) but was a version of the Seventh Circuit Court of
Appeals pattern criminal jury instructions. The instruction proposed the following: “A defendant’s presence at the scene of the crime and knowledge that a
crime is being committed is not sufficient by itself to

App. 42
establish defendant’s guilt.” After hearing arguments
on the instruction, the trial court rejected its use. On
appeal, he argues the instruction should have been
given because there was sufficient evidence to support
the instruction, the jury was not instructed on accountability, and the instructions, as structured, indicated to
the jury that defendant could be held responsible even
if he did not personally discharge the firearm.1
¶ 49 “Jury instructions are necessary to provide the
jury with the legal principles applicable to the evidence presented so that it may reach a correct verdict.”
People v. Falco, 2014 IL App (1st) 111797, ¶ 15. Illinois
Supreme Court Rule 451(a) provides that whenever
the IPI “contains an applicable jury instruction and the
court determines that the jury should be instructed on
the subject, the [IPI instruction] shall be used, unless
the court determines that it does not accurately state
the law.” (Internal quotation marks omitted.) Id. (quoting Ill. S. Ct. R. 451(a) (eff. July 1, 2006)). Where no IPI
exists on a subject, the court has the discretion to give
a nonpattern jury instruction. People v. Ramey, 151 Ill.
2d 498, 536 (1992).
¶ 50 Appellate courts will defer to the trial court’s decision as to whether sufficient evidence supports a particular jury instruction. People v. Jones, 219 III. 2d 1,
31 (2006). While a trial court enjoys discretion in deciding whether to give a jury instruction, the court will
have erred in not giving the instruction if the failure to
1

We rejected the last part of this argument in defendant’s
second issue. Supra ¶¶ 45-47.

App. 43
give the instruction was an abuse of discretion. People
v. Smith, 2014 IL App (1st) 103436, ¶ 77. An abuse of
discretion occurs where there is some evidence to support giving the instruction but the court fails to give it.
Id. A reviewing court will not reweigh the evidence in
determining whether an instruction was proper on a
certain theory. People v. Crane, 145 Ill. 2d 520, 526
(1991).
¶ 51 After review, we find no abuse of discretion on
the part of the trial court in refusing to tender defendant’s “mere presence” instruction to the jury. The victim’s mother testified that even though she could not
see clearly, she only saw two people: her son and an
unknown individual. Additionally, another witness
identified defendant as the only person leaving the
scene and attempting to avoid being seen. The DNA
evidence does not support the conclusion that another
person was present. DNA on the sweatshirt would indicate that someone else other than defendant had
worn it, not that some else was physically present at
the scene. A lack of motive on the part of the defendant
also does not lead to the conclusion that another individual was at the scene. Based on the above, the trial
court did not abuse its discretion in refusing to tender
defendant’s “mere presence” jury instruction.
¶ 52 Lastly, defendant argues that the trial court
erred when it instructed the jury regarding motive.2
2

No written instruction on motive was provided to the jury,
and defendant’s argument rests solely on the exchange between
the juror and the trial court.

App. 44
After providing the jury with its instructions, the following exchange occurred in open court and in the
presence of both parties:
“JUROR:

We have a question.

THE COURT:

Of whom?

JUROR: Why we can’t [sic] hear any motive
in this case?
THE COURT: You heard that the State does
not have to prove motive in this case.”
After the jury was dismissed, defense counsel objected
to the court’s communication with the jury and the
substance of the response. Defense counsel argued the
court should have told the jury it had the instruction
and they should continue to deliberate. The trial court
overruled the objection. Where the defendant has
made a timely objection and properly preserved the issue for review, the reviewing court conducts a harmless
error analysis in which the State has the burden of persuasion with respect to prejudice. Herron, 215 Ill. 2d at
181. Our supreme court has held that the defendant
will not be entitled to a new trial as a result of the error
unless the defendant had suffered actual prejudice.
People v. Childs, 159 Ill. 2d 217, 227-35 (1994).
¶ 53 Relying on People v. Childs, defendant argues
that in answering the juror’s question without the parties input, he was denied the right to participate in a
part of the proceedings substantially affecting his
rights. Id. at 227. However, defendant’s reliance on
Childs is misplaced. In Childs, the judge answered the

App. 45
jury’s question while at dinner with the assistant
State’s Attorneys in the case and outside the presence
of the defendant or his counsel, i.e., an ex parte communication. Id. at 225. On review, our supreme court
stated, “[a] communication between the judge and the
jury after the jury has retired to deliberate, except one
held in open court and in defendant’s presence, deprives defendant of those fundamental rights.” (Emphasis added.) Id. at 227. The court continued that the
rule “has judicially evolved that a jury verdict will not
be set aside where it is apparent that no injury or prejudice resulted from a communication to the jury either
by the trial court or a third person outside the presence
of the defendant and his counsel.” (Emphasis added.)
Id. at 227-28.
¶ 54 Defendant was not deprived of the right to appear and participate, whereas here, defendant admits
both he and his counsel were present when the question was asked and remained silent while the court answered. The court in Childs and the rule discussed
involved an ex parte communication outside of the
defendant’s presence, which did not occur here. Defendant cites to no other case law in support of his
argument. Because the exchange occurred in the presence of both defendant and his counsel, defendant not
was deprived of his right to participate in the proceedings. Accordingly, the defendant was not prejudiced
and the trial court did not commit reversible error
when it answered the jury’s question.

App. 46
¶ 55

CONCLUSION

¶ 56 For the foregoing reasons, we affirm defendant’s
conviction for first degree murder and all other issues
he raises.
¶ 57 Affirmed.

App. 47
IN THE CIRCUIT COURT OF COOK COUNTY
)
PEOPLE OF THE
STATE OF ILLINOIS )
)
V.
)
KORY ALEXANDER )
Defendant
)
)

CASE NUMBER
12CR0225301
DATE OF BIRTH xx/xx/xx
DATE OF ARREST
11/22/11
IR NUMBER 1523195
SID NUMBER 050547990

ORDER OF COMMITMENT AND SENTENCE TO
ILLINOIS DEPARTMENT OF CORRECTIONS
=====================================
The above named defendant having been adjudged guilty of the offense(s) enumerated below is
hereby sentenced to the Illinois Department of Corrections as follows:
Count

003

006

Statutory
Citation

Citations

Sentence Class

MURDER/
YRS 40
M
720-5/9INTENT TO
MOS
1(a)(1)
KILL/INJURE
and said sentence shall run concurrent with
count(s) C
o
o
6
MURDER/
YRS 40
720-5/9STRONG PROB MOS
1(a)(2)
KILL/INJURE
and said sentence shall run concurrent
with count(s) C
o
o
3

M

App. 48
YRS
MOS

and said sentence shall run (concurrent with)
(consecutive to) the sentence imposed on
YRS
MOS

and said sentence shall run (concurrent with)
(consecutive to) the sentence imposed on
YRS
MOS

and said sentence shall run (concurrent with)
(consecutive to) the sentence imposed on
On Count ___ defendant having been convicted of
a class offense is sentenced as a class x offender pursuant TO 730 ILCS 5/5-5-3(C)(B).
On Count ___ defendant is sentenced to an extended term pursuant to 730 ILCS 5/5-8-2.
The Court ﬁnds that the defendant is entitled to
receive credit for time actually served in custody for a
total credit of 0924 days as of the date of this order
IT IS FURTHER ORDERED that the above sentence(s) be concurrent with the sentence imposed in
case number(s)
AND;
consecutive to the sentence imposed under case number(s)

App. 49
IT IS FURTHER ORDERED THAT TIME MUST
BE SERVED 100W, ALL OTHERS COUNTS MS
NOLLE PROS ___ 3 YRS MSR
IT IS FURTHER ORDERED that the Clerk provide the Sheriff of Cook County with a copy of this Order and that the Sheriff take the defendant into
custody and deliver him/her to the Illinois Department
of Corrections and that the Department take him/her
into custody and conﬁne him/her in a manner provided
by law until the above sentence is fulﬁlled.
DATED JUNE 06, 2014
CERTIFIED BY
/s/ M. Johnson
M. JOHNSON
DEPUTY CLERK

ENTER: 06/06/14

/s/ Paula M. Daleo 1868
JUDGE DALEO PAULA M.

App. 50
G.J. NO. 480
GENERAL NO. 12CR-2253
CIRCUIT COURT OF COOK COUNTY
COUNTY DEPARTMENT
CRIMINAL DIVISION
JANUARY 2012
The People of the State of
Illinois
v.
Kory Alexander
INDICTMENT FOR
FIRST DEGREE MURDER
A TRUE BILL
Paula
Foreman of the Grand Jury
WITNESS
Detective Randall Buckner #805

Filed January 25
/s/ Dorothy Brown
Bail $

, 2012
, Clerk

App. 51
STATE OF ILLINOIS
COUNTY OF COOK

)
)
)

SS.

The JANUARY 2012 Grand Jury of the
Circuit Court of Cook County,
The Grand Jurors chosen, selected and sworn, in and
for the County of Cook, in the State of Illinois, in the
name and by the authority of the People of the State of
Illinois, upon their oaths present that on or about November 22, 2011 at and within the County of Cook
Kory Alexander
committed the offense of FIRST DEGREE MURDER
in that HE, WITHOUT LAWFUL JUSTIFICATION,
INTENTIONALLY OR KNOWINGLY SHOT AND
KILLED DARION MASON WHILE ARMED WITH A
FIREARM, AND
DURING THE COMMISSION OF THE OFFENSE
HE PERSONALLY DISCHARGED A FIREARM
THAT PROXIMATELY CAUSED DEATH,
IN VIOLATION OF CHAPTER 720 ACT 5 SECTION
9-1(a)(1) OF THE ILLINOIS COMPILED STATUTES
1992 AS AMENDED AND
contrary to the Statute and against the peace and dignity of the same People of the State of Illinois.
COUNT NUMBER 3
CASE NUMBER 12CR-2253
CHARGE ID CODE: 0735000

App. 52
The Grand Jurors chosen, selected and sworn, in and
for the County of Cook, in the State of Illinois, in the
name and by the authority of the People of the State of
Illinois, upon their oaths present that on or about November 22, 2011 at and within the County of Cook
Kory Alexander
committed the offense of FIRST DEGREE MURDER
in that HE, WITHOUT LAWFUL JUSTIFICATION,
SHOT AND KILLED DARION MASON WHILE
ARMED WITH A FIREARM, KNOWING THAT
SUCH ACT CREATED A STRONG PROBABILITY
OF DEATH OR GREAT BODILY HARM TO DARION
MASON, AND
DURING THE COMMISSION OF THE OFFENSE
HE PERSONALLY DISCHARGED A FIREARM
THAT PROXIMATELY CAUSED DEATH,
IN VIOLATION OF CHAPTER 720 ACT 5 SECTION
9-1(a)(2) OF THE ILLINOIS COMPILED STATUTES
1992 AS AMENDED AND
contrary to the Statute and against the peace and dignity of the same People of the State of Illinois.
COUNT NUMBER 6
CASE NUMBER 12CR-2253
CHARGE ID CODE: 0735100

App. 53
We, the jury, find the defendant, Kory Alexander,
Guilty of First Degree Murder.
[Jurors’ Signatures Omitted]

App. 54
We, the jury, find the allegation was not proven
that during the commission of the offense of first degree murder the defendant personally discharged a
firearm that proximately caused death to another person.
[Jurors’ Signatures Omitted]

App. 55
STATE OF ILLINOIS )
) SS:
COUNTY OF COOK )
IN THE CIRCUIT COURT OF
COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT – CRIMINAL DIVISION
THE PEOPLE OF THE
STATE OF ILLINOIS,
Plaintiff,
-vsKORY ALEXANDER,
Defendant.

)
)
)
)
)
)
)

No. 12 CR 02253

REPORT OF PROCEEDINGS of the jury trial had
before the Honorable PAULA M. DALEO on the 7th
day of March, 2014, in Maywood, Illinois.
APPEARANCES:
HON. ANITA M. ALVAREZ,
State’s Attorney of Cook County, by,
MS. EMILY LEUIN,
and
MS. CYNTHIA ERNO,
Assistant State’s Attorneys,
appeared for the People;
MR. STEVEN WEINBERG,
and
MS. SUSAN PAVLOW,
appeared for the Defendant.

App. 56
Sandra Baldassano, CSR
Official Court Reporter
License No. 084-003428
*
*

*

[BB-2] THE COURT: Lawyers on Kory Alexander. We have to finish the jury instruction conference
that we started.
MS. LEUIN: Judge, I spoke with counsel
this morning, and I also checked with my office. But
it is our position that the two instructions that we
were discussing earlier, 7, I believe, 01 and 7.02 are
correct as they are with the State proceeding on the
counts that we intended to discuss yesterday, Counts
3 and 6.
So, with regard to the counts, the State would only
be proceeding on 3 and 6 and nollying the other counts.
And then, with regard to the instructions that
were given to the Court and counsel yesterday, those
are – it is our position they are correct as they are.
THE COURT:
motion State nolle?
MS. LEUIN:
*

So Counts 1, 2, 4 and 5 are
Correct.
*

*

App. 57
STATE OF ILLINOIS
COUNTY OF COOK

)
)
)

SS:

IN THE CIRCUIT COURT OF
COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT – CRIMINAL DIVISION
THE PEOPLE OF THE
STATE OF ILLINOIS,
Plaintiff,
-vsKORY ALEXANDER,
Defendant.

)
)
)
)
)
)
)
)

No. 12 CR 02253
(Filed Aug. 7, 2014)

Court convened pursuant to recess.
PRESENT:
MS. EMILY LEUIN,
and
MS. CYNTHIA ERNO,
Assistant State’s Attorneys,
appeared for the People;
MR. STEVEN WEINBERG,
and
MS. SUSAN PAVLOW,
appeared for the Defendant.
Sandra Baldassano, CSR
Ofﬁcial Court Reporter
1500 Maybrook Drive, Room 237
Maywood, Illinois 60153
License No. 084-003428

App. 58
*

*

*

[Z-180] Q And does it reﬂect on your report that
they are both right-handed gloves?
A Yes, it does.
Q Is your recollection now refreshed – is your
recollection now refreshed as to whether or not both of
those gloves were right-handed gloves?
A Yes.
Q

And were they?

A Yes, they were.
Q And did you collect them much the same way
so as to not destroy any potential evidence that might
be. on the gloves?
A Yes, I did.
Q Did you in any way process the scene below
where the sweatshirt or the gloves were to try to recover any trace evidence from that location?
A No, I did not.
Q Did you process any part of that gangway to
try to recover trace evidence from any part of that
area?
A No, I did not.
MR. WEINBERG:
THE COURT:

May I have a moment?

Sure.

App. 59
BY MR. WEINBERG:
Q You showed us People’s 18A, B and C. Do you
recall those? They were spent shell casings.
*

*

*

